CERTIFICATION
I, Antwoyn Terrell Spencer, Petitioner, Pro se, certify under penalty of perjury that this writ is brought in
good faith and is true and correct to the best of my understanding and belief. It is sent from FCISandstone, a federal prison located in the district of Minnesota in accordance with 28 U.S.C.S. 1746 as
self notarized.
/s/ ANTWOYN TERRELL SPENCER

(Date: 5/30/20)

Case No.
IN THE
SUPREME COURT OF THE UNITED STATES
ANTWOYN TERRELL SPENCER - PETITIONER
VS.
UNITED STATES OF AMERICA - RESPONDENT
PROOF OF SERVICE
I, Antwoyn Terrell Spencer, do swear or declare that on this date 5/30/20, as required by Supreme Court
Rule 29,1 have served the enclosed Motion For Leave to Proceed In forma Pauperis and Petition for a
Writ of Certiorari on each party to the above proceeding or that party's counsel, by depositing an
envelope containing the above documents in the U.S. Mail properly addressed with 1st class postage
prepaid at the addresses below:
Sent to:
Office of the Clerk, U.S. Supreme Court, Washington DC 20543-0001
Solicitor General of the United States, 950 Pennsylvania Ave, Room 5614, Washington DC 20530-0001
/s/ ANTWOYN TERRELL SPENCER

(Date: 5/30/20)

f

